No. 20-440
In the

Supreme Court of the United States
MINERVA SURGICAL, INC.,
Petitioner,
v.
HOLOGIC, INC., et al.,
Respondents.
On Writ of Certiorari to the United States
Court of A ppeals for the Federal Circuit

BRIEF AMICUS CURIAE OF AMERICAN
INTELLECTUAL PROPERTY LAW
ASSOCIATION IN SUPPORT
OF NEITHER PARTY
Richard T. Matthews
Counsel of Record
Williams Mullen
301 Fayetteville Street, Suite 1700
Raleigh, NC 27601
(919) 981-4000
rmatthews@williamsmullen.com
Joseph R. Re
President
A merican Intellectual Property Law A ssociation
1400 Crystal Drive, Suite 600
Arlington, VA 22202
(703) 415-0780
Counsel for Amicus Curiae
302600

A
(800) 274-3321 • (800) 359-6859

i
TABLE OF CONTENTS
Page
TABLE OF CONTENTS . . . . . . . . . . . . . . . . . . . . . . . . . . i
TABLE OF CITED AUTHORITIES . . . . . . . . . . . . . . . ii
INTEREST OF AMICUS CURIAE . . . . . . . . . . . . . . . . 1
INTRODUCTION AND SUMMARY
OF THE ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
ARGUMENT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 3
I.

Assignor Estoppel Should Remain a
Defense in Appropriate Circumstances. . . . . . . . 3

II. The Estoppel Should Not Apply Where
the Assignor Has Represented Nothing
with Regard to The Issued Claims. . . . . . . . . . . . 5
III. T he Pol ic y a nd L eg a l Bene f it s of
Assignor Estoppel Support Keeping the
Doctrine, Unlike Licensee Estoppel . . . . . . . . . . 7
IV. There is No “Split” Between District
C ou r t s a nd t he Pa t e nt T r i a l a nd
Appeal Board Proceedings . . . . . . . . . . . . . . . . . 10
V.

The Risks Associated with Abolishing
Assignor Estoppel and Disrupting Stare
Decisis are Potentially Far Reaching . . . . . . . . 12

CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 14

ii
TABLE OF CITED AUTHORITIES
Page
Cases
AMP, Inc. v. United States,
389 F.2d 448 (Ct.Cl. 1968), cert. denied,
391 U.S. 964 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8
Arista Networks, Inc. v. Cisco Sys., Inc.,
908 F.3d 792 (Fed. Cir. 2018) . . . . . . . . . . . . . . . . . . . . 2
Beer Nuts, Inc. v. King Nut Co.,
477 F.2d 326 (6th Cir. 1973) . . . . . . . . . . . . . . . . . . . . 10
Blonder Tongue Labs, Inc. v.
Univ. of Illinois Found.,
402 U.S. 313 (1971)  . . . . . . . . . . . . . . . . . . . . . . . . .  7, 11
Consol. Fruit-Jar Co. v. Wright,
94 U.S. 92 (1867) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
Diamond Sci. Co. v. Ambico, Inc.,
848 F.2d 1220 (Fed. Cir. 1988) . . . . . . . . . . 8, 12, 13, 14
Edward Katzinger Co. v.
Chicago Metallic Mfg. Co.,
329 U.S. 394 (1947) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Faulks v. Kamp,
3 F. 898 (C.C.S.D.N.Y. 1880) . . . . . . . . . . . . . . . . . . . . . 3

iii
Cited Authorities
Page
General Plastic Industrial Co., Ltd. v.
Canon Kabushiki Kaisha,
No. IPR2016-01357, 2017 WL 3917706
(P.T.A.B. Sept. 6, 2017) . . . . . . . . . . . . . . . . . . . . . . . . 10
Kimble v. Marvel Entm’t, LLC,
576 U.S. 446 (2015)  . . . . . . . . . . . . . . . . . . . . . . . . . 7, 12
Lear, Inc. v. Adkins,
395 U.S. 653 (1969) . . . . . . . . . . . . . . . . . . . .  2, 7, 10, 14
Scott Paper Co. v. Marcalus Mfg. Co., Inc.,
326 U.S. 249 (1945) . . . . . . . . . . . . . . . . . . . . . . . 5, 8, 12
Stanford University v.
Roche Molecular Systems, Inc.,
563 U.S. 776 (2011)  . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
Westinghouse Elec. & Mfg. Co. v.
Formica Insulation Co.,
266 U.S. 342 (1924) . . . . . . . . . . . . . . . . . . . . . . . passim
ZTE (USA), Inc., v. Fractus, S.A.,
No. IPR2018-01457, 2019 WL 994643
(P.T.A.B. Feb. 28, 2019)  . . . . . . . . . . . . . . . . . . . . . . . 10
Statutes and Other Authorities
18 U.S.C. § 1001  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 8

iv
Cited Authorities
Page
35 U.S.C. § 115  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
35 U.S.C. § 154  . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 12
35 U.S.C. § 314(d) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 10
3 J. Thomas McCarthy, McCarthy on Trademarks
and Unfair Competition § 18:63 (54th ed. 2020) . . . 10
Dav id S . A l mel i ng et . a l., A St a ti sti ca l
Analysis of Trade Secret Litigation in State
Courts, 46 Gonz. L. Rev. 57 (2011)  . . . . . . . . . . . . . . 13
Mark A. Lemley, Rethinking Assignor Estoppel,
54 Hous. L. Rev. 513 (2016)  . . . . . . . . . . . . . . . . . . 9, 11
Ted Hagelin, The Unintended Consequences of
Stanford v. Roche, 39 AIPLA Q.J. 335 (2011) . . . . . 13
William C. Rooklidge, The Federal Circuit, Assignor
Estoppel, and the Progeny of Lear v. Adkins,
70 J. Pat. & Trademark Off. Soc’y 805 (1988) . . . . . 11

1
INTEREST OF AMICUS CURIAE1
The American Intellectual Property Law Association
(“AIPLA”) is a national bar association representing
the interests of approximately 8,500 members engaged
in private and corporate practice, government service,
and academia. AIPLA’s members represent a diverse
spectrum of individuals, companies, and institutions
involved directly or indirectly in the practice of patent,
trademark, copyright, and unfair competition law, as well
as other fields of law affecting intellectual property. Our
members represent both owners and users of intellectual
property. AIPLA’s mission includes providing courts with
objective analyses to promote an intellectual property
system that stimulates and rewards invention, creativity,
and investment while accommodating the public’s interest
in healthy competition, reasonable costs, and basic
fairness. AIPLA has no stake in any of the parties to
this litigation or in the result of this case. AIPLA’s only
interest is in seeking correct and consistent interpretation
of the law as it relates to intellectual property issues.
INTRODUCTION AND SUMMARY
OF THE ARGUMENT
The courts in this country have successfully employed
estoppel by deed to patent assignments for over 140 years.
1. In accordance with this Court’s Rule 37.6, amicus curiae
states that this brief was not authored in whole or in part by
counsel for any party, and that no person or entity other than
amicus curiae and its counsel made a monetary contribution to the
preparation or submission of this brief. Petitioner filed a blanket
consent on October 14, 2020 and Respondents provided express
consent on February 22, 2021.

2
It rightfully precludes an inventor or assignor in privity, in
appropriate circumstances, from upending an assignment
of a patent to the detriment of the assignee. This estoppel
is based on law governing the assignment of a deed to
land. Drawing from estoppel by deed, assignment of a
patent right should carry with it some protections against
challenges to the validity of the patent. Because the
doctrine traces its lineage back to real property law, it is
not a patent-specific rule.
Petitioner argues that the Court’s abolishment of
licensor estoppel in Lear warrants abolishing estoppel by
deed or assignor estoppel here. AIPLA takes no position
on application of the assignor estoppel doctrine to the facts
of this case. Nonetheless, AIPLA encourages the Court to
retain the doctrine, which was established and sustained
by this Court for compelling policy reasons.
The Federal Circuit in Arista Networks, Inc. v.
Cisco Sys., Inc., 908 F.3d 792, 803–04 (Fed. Cir. 2018),
ruled assignor estoppel does not bar an assignor from
challenging the validity of a patent in inter partes review
proceedings before the Patent Trial and Appeal Board
(“PTAB”). The parties assert this created a split of
authority with assignor estoppel in district court cases.
It did not. That ruling presents no “split” in the case law
because Congress gave the right to petition for inter
partes review to everyone, while giving the PTAB the
discretion to consider equitable issues in deciding whether
to institute inter partes review.
Abolishing assignor estoppel could be profound.
From employment agreements with patent assignment
provisions to corporate transactions with transfers of

3
patented technology, many patent owners would face a
cloud of uncertainty regarding their assigned patents.
Assignor estoppel has not been challenged in this Court
since Westinghouse because the doctrine has worked
effectively for well over the last century.
For at least these reasons, AIPLA respectfully
requests that this Court uphold the doctrine of assignor
estoppel as a bar against an inventor or assignor in
privity challenging the validity of the assigned patent.
AIPLA recognizes, however, that the doctrine may be
inapplicable in cases where an inventor could not have
known of the patent rights being asserted, as discussed
in Westinghouse.
ARGUMENT
I.

Assignor Estoppel Should Remain a Defense in
Appropriate Circumstances.

The original reasons for adopting the doctrine of
assignor estoppel remain relevant today—an inventor
or assignor in privity should normally not be permitted
to challenge the validity of a patent for which they were
fully compensated, similar to the transfer of a deed of
trust in real property. See Westinghouse Elec. & Mfg. Co.
v. Formica Insulation Co., 266 U.S. 342, 348 (1924) (“[T]
here seems to be no reason why the principles of estoppel
by deed should not apply to assignment of a patent right.”)
(citing Faulks v. Kamp, 3 F. 898, 900–01 (C.C.S.D.N.Y.
1880) (“Whosoever assumes to sell a patent assumes to
sell that property, and assumes that he had it to sell.”).
This Court has always analogized patents with deeds for
land. “A patent for an invention is as much property as a

4
patent for land. The right rests on the same foundation,
and is surrounded and protected by the same sanctions.”
Consol. Fruit-Jar Co. v. Wright, 94 U.S. 92, 96 (1867).
The Westinghouse decision upholding assignor
estoppel was premised on circuit court cases dating back
to 1880. Faulks v. Kamp, 3 F. 898 (C.C.S.D.N.Y. 1880).
Westinghouse preserved what was at the time “a rule
well settled by forty-five years of judicial consideration
and conclusion in those courts.” Westinghouse, 266 U.S.
at 349. This Court based its holding and application of
stare decisis on the same policy considerations underlying
transfers of real property.
The analogy between estoppel in conveyances
of land and estoppel in assignments of a patent
right is clear. If one lawfully conveys to another
a patented right to exclude the public from the
making, using and vending of an invention, fair
dealing should prevent him from derogating
from the title he has assigned, just as it estops
a grantor of a deed of land from impeaching the
effect of his solemn act as against his grantee.
The grantor purports to convey the right to
exclude others, in the one instance, from a
defined tract of land, and in the other, from a
described and limited field of the useful arts.
The difference between the two cases is only
the practical one of fixing exactly what is the
subject matter conveyed.
Id. at 350. The Westinghouse Court observed that a
patent assignment was “manifestly intended by Congress
to surround the conveyance of patent property with

5
safeguards resembling those usually attaching to that
of land.” Id. at 349. Regardless, what is called assignor
estoppel is not an exclusive patent rule. Rather, it is an
estoppel based on principals of “fair dealing” to guard
against inventors or assignors in privity with them going
back on their word. Id. at 350.
Westinghouse confirmed that the assignment does
not leave the assignor defenseless. It can still contest
infringement, and therefore claim construction and the
prior art (to determine “scope of the right of exclusion
granted”) can be litigated. Westinghouse, 266 U.S. at 353.
This Court has since reiterated that assignor estoppel
applies only to invalidity challenges, and does not preclude
the assignor from raising other defenses or contesting
infringement. Scott Paper Co. v. Marcalus Mfg. Co., Inc.,
326 U.S. 249, 257-58 (1945).
II. The Estoppel Should Not Apply Where the Assignor
Has Represented Nothing with Regard to The
Issued Claims.
The estoppel should be limited to the rights that the
assignors intended to assign, not to other rights they
could not have imagined when making the assignment.
For example, Westinghouse recognized that the doctrine
may not be applicable where the issued claims bear little
resemblance to those claims assigned by the inventor.
Often, when the inventor assigns draft patent applications,
and the patents issue well after the assignment and
without the inventors’ input or assistance, the reasoning
for applying the estoppel may no longer apply. As
Westinghouse explained:

6
It is apparent that the scope of the right
conveyed in [a patent application] assignment
is much less certainly defined than that of a
granted patent, and the question of the extent
of the estoppel against the assignor of such an
inchoate right is more difficult to determine
than in the case of a patent assigned after
its granting. When the assignment is made
before patent, the claims are subject to change
by curtailment or enlargement by the Patent
Office with the acquiescence or at the instance
of the assignee, and the extent of the claims to
be allowed may ultimately include more than
the assignor intended to claim. This difference
might justify the view that the range of relevant
and competent evidence in fixing the limits of
the subsequent estoppel should be more liberal
than in the case of an assignment of a granted
patent.
Id. at 352-353. This scenario is often the case where
employees are obligated to assign all of their work to
their employers. This obligation is a condition of their
employment and in no way reflects their judgment that
what they assign is worthy of patent protection or is
accurately reflected in the issued claims. To the extent an
inventor plays no part in the prosecution of an assigned
patent application through grant of the patent with
broader claims, that fact alone may preclude any estoppel.
Id. But to the extent inventor-employees were involved in
prosecuting the patent application, and understood the
rights assigned, they should be estopped from challenging
the validity of any patent issued therefrom.

7
III. The Policy and Legal Benefits of Assignor Estoppel
Support Keeping the Doctrine, Unlike Licensee
Estoppel
Petitioner argues that the abolishment of licensee
estoppel in Lear, Inc. v. Adkins, 395 U.S. 653 (1969),
supports abolishing assignor estoppel in the present case.
Like many doctrines concerning patent law, they are
both judicially created doctrines that must be balanced
against the federal policy that supports free public
access to formerly patented or unpatentable inventions. 2
But assignor estoppel differs significantly from licensee
estoppel in many respects.
First, inventors (unlike licensees) sign an oath or
declaration attesting that “(1) the application was made
or was authorized to be made by the affiant or declarant;
and (2) such individual believes himself or herself to be
the original inventor or an original joint inventor of a
claimed invention in the application.” 35 U.S.C. 115. An
inventor’s oath or declaration has the full force and effect
2. See Kimble v. Marvel Entm’t, LLC, 576 U.S. 446, 451 (2015)
(“In case after case, the Court has construed [patent] laws to
preclude measures that restrict free access to formerly patented,
as well as unpatentable, inventions.”); Blonder Tongue Labs, Inc.
v. Univ. of Illinois Found., 402 U.S. 313, 349-50 (1971) (reaffirming
Lear in that “the holder of a patent should not be insulated from
the assertion of defenses and thus allowed to exact royalties for
the use of an idea that is not in fact, patentable or that is beyond
the scope of the patent monopoly granted”); Edward Katzinger
Co. v. Chicago Metallic Mfg. Co., 329 U.S. 394, 402 (1947) (“[The]
specific contract not to challenge the validity of the patent cannot
override congressional policy against contracts in restraint of
interstate trade any more than can an implied estoppel.”).

8
of the law under 18 U.S.C. § 1001. Licensees are normally
not in a position to execute an oath or declaration about
the novelty of the licensed invention. A named inventor
who executed the required oath or declaration attesting
to their original inventorship should not later be allowed
to derogate such representations made under penalty of
perjury as against their assignee. In the face of all public
policy considerations currently and previously before this
Court on the subject, any proposed abolition of assignor
estoppel should again be “rejected by this Court on basic
principles of ‘fair dealing’.” Scott Paper, 326 U.S. at 259
(Frankfurter dissenting).
Second, as noted in many decisions, inventors and
assignors in privity have received the benefit of their
bargain when they assigned the patent, unlike licensees
who are generally paying a royalty over time to practice
the invention without fear of suit. Westinghouse, 266 U.S.
at 350; see also Diamond Sci. Co. v. Ambico, Inc., 848
F.2d 1220, 1224 (Fed. Cir. 1988) (“[A]n assignor should
not be permitted to sell something and later to assert
that what was sold is worthless, all to the detriment of
the assignee.”) “As to the rest of the world, the patent
may have no efficacy and create no right of monopoly; but
the assignor can not be heard to question the right of his
assignee to exclude him from its use.” Scott Paper, 326
U.S. at 252 (collecting cases).
Third, assignors have transferred title to a patent
analogous to a deed, where estoppel by deed is a form
of legal estoppel. AMP, Inc. v. United States, 389 F.2d
448, 452 (Ct.Cl. 1968), cert. denied, 391 U.S. 964. As such,
“an assignor of a patent right is estopped to attack the
utility, novelty or validity of a patented invention which he

9
has assigned or granted as against any one claiming the
right under his assignment or grant.” Westinghouse, 266
U.S. at 349. In contrast, there is no transfer of title to a
patent licensee. Because the doctrine of assignor estoppel
came from real property law, the doctrine is not a unique
patent-specific rule.
Further, an inventor could have greater influence
over a trier of fact deciding the validity of the patent
conveyed as compared to the testimony from a licensee.
This influence looms large even when the inventor testifies
contrary to their own oath and declaration, assignment,
and prior transfer of title.
And, assignor estoppel is narrowly tailored. It applies
only to assignors and their privies, leaving “the rest of the
world” (including licensees) free to challenge the patent’s
validity. Westinghouse, 266 U.S. at 349; see also Mark A.
Lemley, Rethinking Assignor Estoppel, 54 Hous. L. Rev.
513, 540-42 (2016) (recognizing a continued role for the
doctrine when, for example, interested inventors concoct
false factual claims to try to defeat their patents, and that
those claims will have particular force for a jury because
the inventor is seen to be testifying against their own
interest by denigrating their own invention.).
Thus, this Court’s precedent and policy considerations
regarding assignor estoppel warrant retaining the
doctrine and applying it when it makes sense. It should
not apply in the scenarios outlined in Westinghouse, such
as when the assignment involves a patent application and
the applicant takes no part advancing the application
to a granted patent having broader claims than those
presented in the original application. 266 U.S. at 352-53.

10
But simply because the doctrine is inapplicable in some
cases does not justify completely abolishing the doctrine.
IV. There is No “Split” Between District Courts and
the Patent Trial and Appeal Board Proceedings
Both Petitioner and Respondent refer to Arista
Networks to argue mistakenly that there is a “split”
between district courts permitting assignor estoppel
and the Patent Trial and Appeal Board (“PTAB”) not
permitting the doctrine. They ignore that Congress gave
anyone the right to petition for inter partes review. 35
U.S.C. § 314(d). Moreover, the PTAB has always been able
to consider a variety of equitable matters in determining
whether to institute an inter partes review proceeding. See
generally Consolidated Trial Practice Guide (Nov. 2019)
https://www.uspto.gov/sites/ default/files/documents/
tpgnov.pdf?MURL (last visited Feb. 9, 2021); see also
General Plastic Industrial Co., Ltd. v. Canon Kabushiki
Kaisha, No. IPR2016-01357, 2017 WL 3917706 (P.T.A.B.
Sept. 6, 2017); ZTE (USA), Inc., v. Fractus, S.A., No.
IPR2018-01457, 2019 WL 994643 (P.T.A.B. Feb. 28,
2019) (extending PTAB’s equitable analysis to parallel
proceedings). The doctrine of licensee estoppel remains
part of jurisprudence at both the district court and before
the Trademark Trial and Appeal Board at the U.S. Patent
& Trademark Office. Beer Nuts, Inc. v. King Nut Co., 477
F.2d 326, 328–29 (6th Cir.1973) (distinguishing Lear and
upholding licensee estoppel for trademark licenses); see
also 3 J. Thomas McCarthy, McCarthy on Trademarks
and Unfair Competition § 18:63 (54th ed. 2020).
The public policy considerations in Lear do not
outweigh the important public policy considerations

11
explained in Sections I and III supra. A Court sitting in
equity should be permitted to consider assignor estoppel
the same as any other estoppel:
But as so often is the case, no one set of facts,
no one collection of words or phrases, will
provide an automatic formula for proper rulings
on estoppel pleas. In the end, decision will
necessarily rest on the trial courts’ sense of
justice and equity.
Blonder Tongue, 402 U.S. at 333-34; see also Diamond
Sci., 848 F.2d at 1228 (Newman, J., concurring) (“Patent
rights are indeed vested with strong elements of public
interest, but this does not exclude giving due weight to
all the interests involved.”) One author has suggested the
Diamond Scientific case distinguishing assignor estoppel
from licensee estoppel removed the need for legislation to
overrule Lear. William C. Rooklidge, The Federal Circuit,
Assignor Estoppel, and the Progeny of Lear v. Adkins, 70
J. Pat. & Trademark Off. Soc’y 805, 816 (1988) (explaining
the history of assignor estoppel).
For the reasons discussed above, in addition to the risks
outlined in Section V infra, the equities weigh strongly in
favor of retaining the assignor estoppel doctrine consistent
with the doctrine of fair dealing. Lemley, supra at 542
(recognizing another basis for keeping assignor estoppel
where an “inventor sold the patent to the assignee as
valuable, made factual representations about the validity
of that patent, and then contradicted those representations
when it was in their interest to do so”).

12
V. The Risks Associated with Abolishing Assignor
Estoppel and Disrupting Stare Decisis are
Potentially Far Reaching
The real-world impact of abolishing assignor estoppel
and failing to follow this Court’s prior precedent could be
profound. Kimble v. Marvel Entm’t, LLC, 576 U.S. 446,
447 (2015) (implicating “property and contract law, two
contexts in which considerations favoring stare decisis
are ‘at their acme’ … because parties are especially likely
to rely on such precedents when ordering their affairs”)
(citations omitted).
For corporate transactions involving patents, a cloud
of uncertainty would hang over patent assignments
for the current patent term – 20 years. 35 U.S.C. §
154; Kimble, 576 U.S. at 446. Commercial transactions
involving the transfer of intellectual property often
include representations and warranties regarding the
validity and ownership of such intellectual property
assets. Christopher M. Turoski, IP in Mergers &
Acquisitions, Representations and warranties—Validity
and enforceability, § 5:19. The parties to these transactions
negotiated and placed value on these representations and
warranties. Being unable to rely on them would impair
private contract rights, allowing a transferor to assert
that the rights it expressly represented and warranted
are invalid. Encouraging this behavior flies in the teeth
of “basic considerations of ‘fair dealing’.” Scott Paper, 326
U.S. at 259. Future deals or agreements involving the
assignment of patents might not be able to warrant against
the “unfairness and injustice that would be suffered by the
assignee if the assignor were allowed to raise defenses of
patent invalidity.” Diamond Sci., 848 F.2d at 1225 (“Yet

13
despite the public policy encouraging people to challenge
potentially invalid patents, there are still circumstances in
which the equities of the contractual relationships between
the parties should deprive one party (as well as others in
privity with it) of the right to bring that challenge.”).
And the number of corporate patent assignments pales
in comparison to the number of employment agreements
implicated by abolition of the assignor estoppel doctrine.
Companies developing patentable technology want
certainty that their employees will remain committed to
their intellectual property assignments, particularly those
executed at the time when assignor estoppel provided
added security against surreptitious validity attacks. In
Stanford University v. Roche Molecular Systems, Inc., 563
U.S. 776 (2011), this Court held that a present assignment
of rights precluded a future assignment of the same rights.
Following Stanford, employers had to scramble to shore
up their employment agreements, and confirm employees
were bound by more explicit and immediately effective
assignment agreements. Ted Hagelin, The Unintended
Consequences of Stanford v. Roche, 39 AIPLA Q.J. 335,
351 (2011).
Former employee inventors are often the greatest
source of trade secret misappropriation and related
claims, often involving competing start-ups. David S.
Almeling et. al., A Statistical Analysis of Trade Secret
Litigation in State Courts, 46 Gonz. L. Rev. 57, 68 (2011).
Were assignor estoppel eliminated, employers would
face the possibility that no contract language would keep
employees from later challenging a patent naming them
as an inventor. Abolishing assignor estoppel could promote
bad behavior. As the Diamond Scientific court noted,

14
“the primary consideration in now applying the doctrine
is the measure of unfairness and injustice that would be
suffered by the assignee if the assignor were allowed
to raise defenses of patent invalidity.” 848 F.2d at 1225.
Practically, inventors who depart from one company to
start a new competitive company should be barred from
being able to challenge the validity of their own patents.
If assignor estoppel is abolished under the same policy
considerations provided in Lear, then that employer
would be left with little recourse. Fraud allegations are
a poor substitute for the stabilizing effect of the assignor
estoppel doctrine.
AIPLA submits that the doctrine has worked
efficiently in preventing assignors from challenging the
validity of the patents they have assigned. Consequently,
there are not many assignor estoppel cases. Setting aside
the title of the assignor estoppel doctrine, this estoppel is
not a patent-specific rule, but rather the “the functional
equivalent of estoppel by deed” derived from real property
law considerations that have not changed in the last 140
years. Id. There is no sound reason to upset these longsettled expectations now.
CONCLUSION
For all the foregoing reasons, the doctrine of assignor
estoppel should be preserved to bar inventors or assignors
in privity from challenging a patent they have assigned
for value.

15
Respectfully submitted this first day of March, 2021.
Richard T. Matthews
Counsel of Record
Williams Mullen
301 Fayetteville Street, Suite 1700
Raleigh, NC 27601
(919) 981-4000
rmatthews@williamsmullen.com
Joseph R. Re
President
A merican Intellectual Property Law A ssociation
1400 Crystal Drive, Suite 600
Arlington, VA 22202
(703) 415-0780
Counsel for Amicus Curiae

